August 3, 2000
Audit Report No. 00-031


Review of the Claims Made to the
Credit Enhancement Reserve Fund for
Securitization Transaction 1991-07
Federal Deposit Insurance Corporation                                                           Office of Audits
Washington, D.C. 20434                                                              Office of Inspector General




   DATE:                          August 3, 2000



   MEMORANDUM TO:                 Mitchell Glassman, Director
                                  Division of Resolutions and Receiverships



   FROM:                          David H. Loewenstein
                                  Assistant Inspector General

   SUBJECT:                       Review of the Claims Made to the Credit Enhancement Reserve
                                  Fund for Securitization Transaction 1991-07
                                  (Report No. 00-031)

   This report presents the results of a review of the claims made to the Credit Enhancement
   Reserve Fund (Reserve Fund) for securitization transaction 1991-07. This is the fourth in a
   series of nine reports that the OIG will issue relating to the securitization transactions serviced by
   Ryland Mortgage Company. The independent professional services firm, KPMG Consulting,
   conducted this review under the direction of the OIG.

   The objective of our review was to determine if the realized losses that caused reductions to the
   Reserve Fund for the sample items tested were allowable and adequately supported by
   documentation. The review encompassed a sample of the $13.5 million of claims made to the
   Reserve Fund from September 1991 through May 1998.

   The Division of Resolutions and Receiverships (DRR) issued a written response received
   July 25, 2000 (see Appendix II) to a draft report. In this response, DRR disallowed questioned
   costs totaling $665,025 and outlined its plan of corrective action. This response provided the
   requisites for a management decision on our two recommendations. The OIG’s evaluation of
   management’s comments is presented in Appendix I.

   If you have any questions, please call me at (202) 416-2412 or Marilyn Rother Kraus, Deputy
   Assistant Inspector General, at (202) 416-2426.
July 27, 2000



Ms. Marilyn Rother Kraus
Deputy Assistant Inspector General
Office of Audits
Office of Inspector General
Federal Deposit Insurance Corporation
801 17th Street, NW
Washington, DC 20434

Subject: Report Entitled Review of Credit Enhancement Reserve Fund for Transaction
1991-07


Dear Ms. Kraus:

In accordance with FDIC Delivery Order No. 99-00337-C-LH, KPMG Consulting is
pleased to provide you with our final review report for RTC Transaction 1991-07.

This report presents the results of our review of claims from the Credit Enhancement
Reserve Fund for RTC Transaction 1991-07 made by Ryland Mortgage Company. Our
review was conducted in accordance with the standards applicable to financial related
audits contained in Government Auditing Standards issued by the Comptroller General of
the United States.

If you have any questions, please contact Robert Schmid at (703) 747-4154 or me at
(703) 747-3056.

Sincerely,

KPMG Consulting LLC



Timothy F. Kenny
Managing Director

Attachment
    Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-07


In accordance with Federal Deposit Insurance Corporation ("FDIC") Delivery Order
Number 99-00337-C-LH, KPMG completed a review of claims made to the Credit
Enhancement Reserve Fund ("Reserve Fund") for securitization transaction 1991-07.
The FDIC Division of Resolutions and Receiverships ("DRR") Mortgage-Backed
Securities Administration ("MBS") is responsible for the administration and oversight of
the securitization program.

This report presents the results of one of nine reviews of claims made to Reserve Funds
for securitization transactions that KPMG has been engaged to perform by the FDIC's
Office of Inspector General ("OIG"). These reviews are all related to single-family
residential ("SFR") loan securitizations serviced by Ryland Mortgage Company
("Ryland").

BACKGROUND

Securitization is the process by which loans are packaged into pools that are then used as
collateral to back securities sold to investors in the capital markets. The Resolution Trust
Corporation ("RTC")1 used securitization as a method to sell loans from failed
institutions. To obtain a high credit rating, the RTC created Reserve Funds for each
securitization. The purpose of the Reserve Fund is to provide investors with a limited
amount of protection against credit risks in the event that borrowers default or fail to
make timely remittances on loans included in the securitization.

The RTC, the trustee, and the servicer signed a Pooling and Servicing Agreement
("PSA") at each securitization transaction's closing that describes the obligations of the
trustee and servicer. The trustee is responsible for maintaining and investing the Reserve
Funds and remitting interest earned to the FDIC on a monthly basis. The trustee adjusts
the Reserve Funds to reimburse the servicer for realized losses and to reimburse the FDIC
for any rating agency-approved reserve releases. The servicer is responsible for
performing traditional loan servicing functions, including collecting and accounting for
borrowers' payments and resolving delinquent loans. The servicer is also responsible for
making advances of principal and interest payments, and for making corporate advances
to pay property maintenance expenses and attorney fees on defaulted loans. The servicer
remits all collections and advances to the trustee monthly, along with electronic
collection reports. The trustee then passes the collections and principal and interest
advances through to the investors.

Upon liquidation of a defaulted loan, the servicer prepares an officer's certificate that
reports the realized loss or gain. An itemization of the net liquidation proceeds, non-
recoverable advances, and the remaining principal balance of the defaulted loan support
the officer’s certificate. Upon receipt of the officer's certificate, the trustee releases the
amount of the realized loss or deposits the amount of the realized gain from/to the
Reserve Fund. Any remaining balance in the Reserve Fund returns to the FDIC after the
1
  The RTC’s legislatively mandated sunset date was December 31, 1995. Responsibility for all RTC-
related work as of that date was transferred to the FDIC in accordance with the RTC Completion Act.


                                             1 of 10
    Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-07

securitization transaction terminates. Therefore, claims to the Reserve Fund directly
impact the value of the FDIC's residual interest in the Reserve Fund.

SECURITIZATION TRANSACTIONS SERVICED BY RYLAND

The RTC entered into nine PSAs with Ryland Mortgage Company ("Ryland") as the
servicer. Table 1 presents each of the nine securitized transactions serviced by Ryland,
the amount of the initial Reserve Fund balance, and the amount of realized losses charged
to the Reserve Fund through May 1998. In May 1998, Ryland ceased servicing these
securitizations and transferred servicing to another servicer, PNC Mortgage Corporation
of America.

Table 1: Summary of Reserve Fund Balances and Realized Losses
  Transaction                   Initial Reserve          Realized Losses Claimed
                                              2
  Number                        Fund Balance                through May 19983
  91-01                                     $51,335,000                 $28,322,467
  91-03                                    $128,578,493                  $7,375,105
  91-07                                    $173,998,810                 $13,538,760
  91-09                                     $17,461,645                $17,461,6454
  91-12                                     $68,451,306                 $32,164,552
  91-15                                     $45,177,381                 $10,735,406
  92-01                                     $77,554,433                 $10,864,625
  92-03                                    $199,092,010                 $28,393,589
  92-04                                    $133,919,842                 $23,365,863
  Total                                    $895,568,920               $172,222,012
 Source: See Footnotes 2 and 3

SECURITIZATION TRANSACTION 1991-07

At the inception of securitization transaction 1991-07 in September 1991, State Street
Bank & Trust ("State Street") was named as the trustee and Ryland was named as the
servicer. As shown above, the initial Reserve Fund balance established at inception
totaled $174 million. During the period selected for review, Ryland was the only loan
servicer for securitization transaction 1991-07. Ryland charged $13.5 million in realized
losses to the Reserve Fund through February 1997 when this transaction was terminated.




2
  Source: RTC and FDIC Guide to Mortgage-Backed Securities, June 1998
3
  Source: Statements to Certificateholders provided to OIG by the trustee and the FDIC Public Reading
Room
4
  The Reserve Funds were depleted in August 1995 for Transaction Number 1991-09.


                                                2 of 10
    Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-07

OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of the review was to determine if the realized losses that caused reductions
to the Reserve Fund for securitization transaction 1991-07 for the sample items tested
were allowable and adequately supported by documentation.5 To meet this objective, we
reviewed a predetermined sample of realized losses charged to the Reserve Fund for the
period of September 1991 through February 1997. Our sample size, determined by the
OIG, was comprised of 43 loans with realized losses totaling $1.65 million or 12 percent
of the $13.5 million in realized losses charged to the Reserve Fund through May 1998.

We did not have access to Ryland's staff, systems, or general ledger. Therefore KPMG
could not interview Ryland personnel or conduct tests of Ryland’s systems and general
ledgers in order to detect accounting errors. Our scope was further limited to a review of
the opening scheduled principal balances and escrow account balances of the sampled
loans as of the default date because previous loan period activity was not available for
our review.
Our methodology consisted of a review of the documentation in the loan files supplied to
the OIG by Ryland under subpoena, as well as a review of officer's certificates provided
to OIG by Ryland, State Street, and MBS. Our work also included a review of the
documentation contained in the files of MBS's oversight contractor, MGIC Investor
Services Corporation ("MGIC") that were provided to OIG by MBS. One of MGIC's
duties under its contract was to review the realized losses for reasonableness after the
servicer sent the officer's certificate to the trustee and to report to MBS on the results of
those reviews.
During our examination of the loan files and MGIC files, we:6
! reviewed all available settlement statements and other disposition documents to
   confirm the amount of the net proceeds;
! reviewed loan histories and amortization schedules, where available, to verify the
   proper amount of principal and interest advances and the remaining scheduled
   principal balances;
! reviewed the adequacy of the documentation supporting the corporate advances
   charged to the realized loss; searched for unrecorded income and overstated
   advances;
! recalculated the amortization of the sampled loans to verify that the principal and
   interest advances that Ryland charged to the Reserve Fund conformed to the terms of
   the note and that the proper interest rate was used in the calculation;
! traced the interest rate used to the appropriate index to verify that the interest rate
   used by Ryland was correct;
! confirmed that servicing fees were excluded from interest advances;
! verified the default and liquidation dates using evidence in the loan files and verified
   that Ryland ceased principal and interest advances in the month of liquidation; and,
5
  In accordance with the overall objective of the Task Requirements set forth in the Statement of Work for
FDIC Delivery Order #99-00337-C-LH
6
  Testwork performed in accordance with the procedures stated in the Statement of Work for FDIC
Delivery Order #99-00337-C-LH – Attachment A.


                                                    3 of 10
    Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-07

!     recalculated the unused insurance premium refunds that did not appear to have been
      credited to the Reserve Fund.

Ryland chose to submit to the OIG the original loan files containing the documentation to
support the realized losses charged to the Reserve Fund for the 43 sampled loans.
Therefore, we performed all of our work in the FDIC OIG's offices in Washington, D.C.
We conducted the work in accordance with the standards applicable to financial related
audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States. The review began on October 13, 1999 and fieldwork was
completed on April 28, 2000.


RESULTS

Overall, we found that the majority of the calculations of realized losses for the 43
sample loans contained unsupported costs and other questioned costs. Of the $1.65
million in claims to the Reserve Fund, we identified questioned costs totaling $665,025,
or 40 percent of total claims reviewed. Of the total questioned costs, $606,114 was
considered to be unsupported and $58,911was considered to be other questioned costs
that were unallowable or excessive under the terms of the PSA. Table 2 presents an
overall summary of the results of our testing of the 43 sample loans.

Table 2: Summary of Total Questioned Costs Totaling $665,025
                                                          Percent of
Description               Dollars           Total Questioned      Total Realized
                                                  Costs           Losses Tested
Unsupported Costs                $606,114          91%                 37%

Other Questioned Costs                  $58,911           9%                   3%

Total                                 $665,025           100%                  40%
Total Realized Losses                $1,653,566
Tested




                                           4 of 10
    Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-07

UNSUPPORTED COSTS

Unsupported costs are those costs included in the realized loss calculation that were not
supported by adequate documentation. KPMG categorized the unsupported costs into
five categories for the purpose of this report:

!     Unsupported Liquidations
!     Unsupported Principal and Interest Advances
!     Unsupported Escrow Disbursements
!     Unsupported Liquidation Expenses/Corporate Advances
!     Other Unsupported Costs

Table 3 reports the relationship of each category as a component of total unsupported
costs for 1991-07:

Table 3: Summary of Unsupported Costs Totaling $606,114
                                                                                Percent of
                                    Number of         Amount of
 Category                           Loans With       Unsupported         Total           Total
                                      Errors            Costs         Unsupported       Realized
                                                                         Costs           Losses
                                                                                         Tested
 Unsupported Liquidations                 5              $353,560         58%                21%

 Unsupported Principal and
                                          4              $136,636         23%                8%
 Interest Advances

 Unsupported Escrow
                                         20               $42,658          7%                3%
 Disbursements

 Unsupported Liquidation
 Expenses/Corporate                      28               $26,891          4%                2%
 Advances

 Other Unsupported Costs                  3               $46,369          8%                3%

 TOTAL                                                   $606,114         100%               37%




                                          5 of 10
 Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-07

Unsupported Liquidations

Most significantly, KPMG was unable to verify the claims, totaling $353,560, for five
loans in our sample because there was insufficient evidence in the loan file to support that
the liquidation took place. For example, the loan file may not have contained a closing
statement (e.g., HUD-1 document) which supports the sales price, the date of the sale or
the liquidation expenses. Without the HUD-1 document, KPMG could not verify the net
proceeds that the servicer received from the sale of the foreclosed property and included
in the calculation of the realized loss. In some instances, we could not verify that a sale
actually occurred because there was insufficient evidence in the loan file to document
that the property was sold to a third party and that the net proceeds were remitted to the
servicer.

Initial claims are only valid if the foreclosed property is liquidated. The servicer would
maintain the property as an asset in the absence of a foreclosure sale. Because we could
not always verify that a foreclosure sale occurred and that the property is no longer the
responsibility of the servicer, these claim amounts were considered unsupported. In
addition to the initial claim, KPMG also reviewed supplemental claims and refunds to the
Reserve Fund. KPMG found that the majority of these transactions were unsupported as
well. Unsupported liquidations account for 58 percent of total unsupported costs and 21
percent of total realized losses tested.

Unsupported Principal and Interest Advances

KPMG identified unsupported principal and interest advances totaling $136,636 related
to four loans. KPMG could not recalculate the advances because the loan files either did
not contain the mortgage note, or the mortgage note did not contain sufficient detailed
loan characteristics. Although the loan files contained information such as payment
dates, interest rate(s) and payment adjustment frequency, we could not verify the loan
terms necessary for the interest advance calculation. Because it is possible for an
individual to inadvertently enter incorrect information related to the terms of a loan into a
servicing system, we relied solely on the mortgage note for loan information such as the
interest rate, payment dates, rate changes and payment changes. Without the mortgage
note, we cannot verify that the information used in the calculation of interest reflects the
true characteristics of the loan. Accordingly, the total amount of advances claimed by the
servicer could not be verified, and this amount was considered unsupported.
Unsupported principal and interest advances account for 23 percent of total unsupported
costs and 8 percent of total realized losses tested.

Unsupported Escrow Disbursements

KPMG identified $42,658 of unsupported escrow disbursements made for 20 of the
sampled loans. These unsupported costs related to attorney fees, bankruptcy fees,
property management/repairs, and other expenses paid by the servicer prior to
liquidation. Ryland's practice was to pay all of these types of costs from the escrow
account. KPMG considered any escrow disbursement to be unsupported if there


                                             6 of 10
    Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-07

was (1) no detailed invoice7 from the vendor who provided the service or utility; and,
(2) no evidence of Ryland's actual payment. If one or the other was missing from the
loan file, then KPMG considered the expense to be an unsupported cost. Because KPMG
did not have access to Ryland's general ledger, we could not perform tests of the system.
Acceptable evidence of payment includes copies of checks, wire transfer confirmations
that agree to amounts claimed, or prior invoices that identified a previous amount paid.
Unsupported escrow disbursements account for 7 percent of total unsupported costs and 3
percent of total realized losses tested.

Unsupported Liquidation Expenses/Corporate Advances

KPMG identified $26,891 in unsupported liquidation expenses/corporate advances. For
28 of the sample loans tested, KPMG could not locate sufficient evidence in the file (i.e.
invoice and evidence of payment) to substantiate the deductions from sales proceeds on
the HUD-1, property management expenses paid from net sales proceeds, or corporate
advances. These expenses and advances were normally deducted from the net proceeds
of the liquidation, or claimed for reimbursement subsequent to the submission of the
officer’s certificate. Examples of liquidation expenses and corporate advances were
broker/management bills, unusual expenses deducted from proceeds on the closing
statement, and utilities. Unsupported liquidation expenses/corporate advances account
for 4 percent of total unsupported costs and 2 percent of total realized losses tested.

Other Unsupported Costs

Three of Ryland’s loan files did not provide sufficient documentation to support either
the total net realized loss calculation, or a portion of it. KPMG therefore, classified the
unsubstantiated claim amounts of $46,369, related to these loans as unsupported costs.
The loan files for these three sample items did not contain any supporting documentation
to substantiate the claims. Therefore, KPMG considered these claims to be unsupported
costs. Other miscellaneous unsupported costs account for 8 percent of total unsupported
costs and 3 percent of all realized losses tested.

Recommendation

We recommend that the Manager, MBS, DRR:

(1)    Disallow the unsupported costs of $606,114 as detailed below:
        Unsupported Liquidations                                                     $353,560
        Unsupported Principal and Interest Advances                                  $136,636
        Unsupported Escrow Disbursements                                              $42,658
        Unsupported Liquidation Expenses/Corporate Advances                           $26,891
        Other Unsupported Costs                                                       $46,369

7
   For example, property managers would often pay expenses and claim reimbursement from Ryland by
submitting an invoice that itemized these expenses. KPMG considered these property management
expenses to be unsupported if the underlying detailed invoices from the actual third party vendors were not
available to adequately support the property management invoices.


                                                     7 of 10
    Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-07


OTHER QUESTIONED COSTS

Other questioned costs are those costs that were included in the realized loss calculation
and that KPMG determined to be unallowable under the terms of the PSA or excessive
under standard industry loan servicing practices. KPMG categorized unallowable or
excessive costs identified during the review into five categories for the purpose of this
report:

!     Unallowable or Excessive Liquidation Expenses/Corporate Advances
!     Unallowable Principal and Interest Advances
!     Unrecorded Income
!     Unallowable Escrow Disbursements
!     Miscellaneous Unallowable Costs

Table 4 reports the relationship of each category as components of total other questioned
costs for 1991-07.

Table 4: Summary of Other Questioned Costs Totaling $58,911
                                                                               Percent of
                                     Number of           Amount of
                                     Loans With            Other      Total Other       Total
Category
                                       Errors            Questioned   Questioned       Realized
                                                           Costs         Costs          Losses
                                                                                        Tested
Unallowable or Excessive
Liquidation Expenses/Corporate            25               $28,008       48%                 2%
Advances

Unallowable Principal and
                                          10               $15,384       26%                 1%
Interest Advances

Unrecorded Income                         29                $8,452       14%                <1%

Unallowable Escrow
                                           9                $2,373        4%                <1%
Disbursements

Miscellaneous Unallowable
                                           1                $4,694        8%                <1%
Costs

TOTAL                                                      $58,911       100%                3%




                                               8 of 10
 Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-07


Unallowable or Excessive Liquidation Expenses/Corporate Advances

Ryland included $28,008 of unallowable or excessive liquidation expenses or corporate
advances in 25 of the sampled loans. Most significantly, Ryland paid sales commissions
in excess of 6 percent of the contract sales price, which we considered to be excessive for
the servicing industry during the period under review. In addition, any excess cost
incurred by Ryland through the contracting-out of property management or other
servicing functions (i.e., property management fees) may not be reimbursed from the
Reserve Fund per section 3.01(b) of the PSA. Ryland included excessive commissions of
$11,581, referral or coordination fees of $13,193, and property management fees of
$2,821, in its net realized loss calculation for 25 loans resulting in $27,595 of
unallowable costs. Ryland also claimed $413 in other corporate advances from the
Reserve Fund, which were unallowable under the terms of the PSA. Unallowable or
excessive liquidation expenses and corporate advances account for 48 percent of total
other questioned costs and 2 percent of total realized losses tested.

Unallowable Principal and Interest Advances

Ryland made errors totaling $15,384 in the calculation of principal and interest advances
claimed in the realized loss calculation in 10 of the loans sampled. Ryland
inappropriately included servicing fees in the calculation of principal and interest
advances and improperly claimed additional months of interest advances beyond the
liquidation date. In certain cases, KPMG was unable to determine the nature of the
discrepancy due to insufficient documentation in the loan file. Unallowable principal and
interest advances account for 26 percent of total other questioned costs and 1 percent of
total realized losses tested.

Unrecorded Income

For 29 of the sampled assets, KPMG identified instances where Ryland did not credit the
Reserve Fund for refunds of unused hazard or flood insurance premiums after the loan
liquidated. These exceptions totaled $8,452. Unrecorded income represents 14 percent
of total other questioned costs and less than 1 percent of total realized losses tested.

Unallowable Escrow Disbursements

Ryland charged the Reserve Fund $2,373 for avoidable late fees and other unallowable
escrow disbursements for nine loans. We considered these late fees to be unallowable
because they were either incurred during the period that Ryland was responsible for
paying either taxes or homeowners' association dues, or relate to other escrow expenses
that are not allowed. Ryland’s responsibility under section 3.01(a) of the PSA is to
ensure timely payment of taxes and assessments on mortgaged properties and timely
payment of other property protection expenses. Unallowable escrow disbursements
account for 4 percent of total other questioned costs and less than 1 percent of total
realized losses tested.


                                            9 of 10
 Review of Credit Enhancement Reserve Fund for Securitization Transaction 1991-07


Miscellaneous Unallowable Costs

Ryland charged the Reserve Fund $4,694 for miscellaneous unallowable costs associated
with one loan. This error is comprised of expenses paid for and reimbursed by the
Reserve Fund twice. Miscellaneous unallowable costs account for 8 percent of total other
questioned costs and less than 1 percent of total realized losses tested.

Recommendation

We recommend that the Manager, MBS, DRR:

(2)   Disallow the other questioned costs of $58,911 as detailed below:
       Unallowable or Excessive Liquidation
                                                                          $28,008
       Expenses/Corporate Advances
       Unallowable Principal and Interest Advances                        $15,384
       Unrecorded Income                                                   $8,452
       Unallowable Escrow Disbursements                                    $2,373
       Miscellaneous Unallowable Costs                                     $4,694




                                           10 of 10
                                                                                     APPENDIX I



MANAGEMENT COMMENTS AND OIG EVALUATION


On July 25, 2000, the Deputy Director, Franchise and Asset Marketing, DRR, provided a written
response to the draft report. The response is presented in Appendix II to this report.

DRR management agreed to disallow all of the questioned costs in Recommendations 1 and 2,
totaling $665,025. DRR also stated that it is pursing collection of the disallowed amount through
formal settlement negotiations with Ryland’s outside counsel. DRR expects the settlement
negotiations to be completed by December 31, 2000. However, if DRR is unsuccessful in the
collection of the disallowed funds from Ryland, then the matter will be referred to the FDIC for
litigation. DRR will maintain all documents pertaining to the settlement discussions with Ryland,
or if necessary, the documents surrounding the initiation of the litigation.

The Corporation’s response to the draft report provided the elements necessary for management
decisions on the report’s recommendations. Therefore, no further response to this report is
necessary. Appendix III presents management’s proposed action on our recommendations and
shows that there is a management decision for each recommendation in this report.

Based on the review work, the OIG will report questioned costs of $665,025 (of which $606,114 is
unsupported) in its Semiannual Report to the Congress.
                                                                                             APPENDIX II

Federal Deposit Insurance Corporation
550 17th Street NW, Washington, DC 20429                                      Division of Resolutions and Receiverships




DATE:               July 25, 2000

TO:                 David H. Loewenstein
                    Assistant Inspector General
FROM:               James R. Wigand
                    Deputy Director Franchise and Asset Marketing

SUBJECT:            Response to Draft Report Entitled Review of Claims Made to the Credit
                    Enhancement Transaction 1991-07


The following describes the management actions in response to recommendations contained in
the above referenced report.


1)        Disallow the unsupported costs of $606,114 detailed below:

          Unsupported Liquidations - $353,560
          Unsupported Principal and Interest Advances - $136,636
          Unsupported Escrow Disbursements - $42,658
          Unsupported Liquidation Expenses/Corporate Advances - $26,891
          Other unsupported Costs - $46,369

          A)        Specific Corrective Action Already Taken:

                    MBS Administration concurs with the OIG findings to disallow the $606,114 in
                    unsupported costs claimed by Ryland to the Credit Enhancement Fund for each
                    detailed category listed above. MBS Administration is pursuing collection of the
                    disallowed amount through formal settlement negotiations with Ryland’s outside
                    counsel.

          B)        Corrective Actions to be Taken Together with Expected Completion Date:

                    We expect the settlement negotiations to be completed by December 31, 2000.
                    However, if MBS Administration is unsuccessful in the collection of the
                    disallowed funds from Ryland, the matter will be referred to the FDIC Legal
                    Division litigation1.

          C)        Documentation that will confirm the completion of the corrective action.
1
 Litigation would encompass all audit exceptions for all of the Pooling & Servicing Agreements between the FDIC,
Ryland and the Trustee.
                 MBS Administration will maintain all documents pertaining to the settlement
                 discussions with Ryland. If the negotiations are unsuccessful, MBS
                 Administration will maintain copies of the documentation surrounding the
                 initiation of litigation.

2)        Disallow the other questioned costs of $58,911 as detailed below:

          Unallowable or Excessive Liquidation Expenses/Corporate Advances - $28,008
          Unallowable Principal and Interest Advances - $15,384
          Unrecorded Income - $8,452
          Unallowable Escrow Disbursements - $2,373
          Miscellaneous Unallowable Costs - $4,694

          A)     Specific Corrective Action Already Taken:

                 MBS Administration concurs with the OIG finding to disallow $58,911 in
                 unsupported costs claimed by Ryland to the Credit Enhancement Fund for each
                 detailed category listed above. MBS Administration is pursuing collection of the
                 disallowed amount through formal settlement negotiations with Ryland’s outside
                 counsel.

          B)     Corrective Actions to be Taken Together with Expected Completion Date:

                 We expect the settlement negotiations to be completed by December 31, 2000.
                 However, if MBS Administration is unsuccessful in the collection of the funds
                 from Ryland, the matter will be referred to the FDIC Legal Division for
                 litigation2.

          C)     Documentation that will confirm the completion of the corrective action:

                 MBS Administration will maintain all documents pertaining to the settlement
                 discussions with Ryland. If the negotiations are unsuccessful, MBS
                 Administration will maintain copies of the documents surrounding the initiation
                 of litigation.



cc:              Director, Office of Internal Control Management
                 Director, Division of Resolutions and Receiverships
                 Associate Director for Internal Review, DRR
                 Internal Control Liaison, DRR

2
    Id.
                                                                                                                    APPENDIX III
MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its
recommendations in its semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance
with the act and related guidance, several conditions are necessary. First, the response must describe for each recommendation

! the specific corrective actions already taken, if applicable;
! corrective actions to be taken together with the expected completion dates for their implementation; and
! documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and
the reasons for any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in
management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not
considered valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the
documentation confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management
decisions. The information for management decisions is based on management’s written response to our report.
                                                                                      Documentation                    Management
 Rec.                                                               Expected         That Will Confirm      Monetary   Decision: Yes
Number     Corrective Action: Taken or Planned/Status            Completion Date       Final Action         Benefits      or No
                                                                                     Documents
                                                                                     pertaining to the
         The Corporation agreed to disallow $606,114 and                             settlement
         will pursue collection of this amount through formal                        discussions with
  1      settlement negotiations. If negotiations are            December 31, 2000   Ryland, or if          $606,114       Yes
         unsuccessful, then the matter will be referred to the                       necessary, documents
         FDIC Legal Division for litigation.                                         surrounding the
                                                                                     initiation of
                                                                                     litigation.
                                                                                     Documents
                                                                                     pertaining to the
         The Corporation agreed to disallow $58,911 and                              settlement
         will pursue collection of this amount through formal                        discussions with
  2      settlement negotiations. If negotiations are            December 31, 2000   Ryland, or if          $58,911        Yes
         unsuccessful, then the matter will be referred to the                       necessary, documents
         FDIC Legal Division for litigation.                                         surrounding the
                                                                                     initiation of
                                                                                     litigation.
